Supreme Court, U.S.
FILED

J
No.

#lo" (?S 7

OCT 0 9 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

TONY C. THOMAS, for the Estate of Thalia Dukes,
Plaintiff-Appellant
V.
LAWRENCE S. CRAIGE,
Defendant - Appellee
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Tony C. Thomas
820 South 10th Street
Wilmington, NC 28401
(224) 610-9794

QUESTIONS PRESENTED
This Court has yet to resolve the question lying at the core of this
appeal, which has produced a split amongst this country's federal
judiciary: whether the rights preserved by the Eighth and Fourteenth
Amendments to the United States Constitution attachs to the RookerFeldman doctrine where the defendant (not the clerk of court)
authored a document announcing a hearing date in the State Court,
adding the words, "or when the Judge is available." While Petitioner
waited for a date certain from the judge, defendant, in the absence of
Petitioner, convinced the judge to dismiss the matter, nullifying the jury
trial that was scheduled. North Carolina Supreme Court refused get
involved.
The essential issue raised is whether the Rooker-Feldman
doctrine can bar a federal suit where the Plaintiff was denied the
opportunity to present his case in state court. Moreover, the RookerFeldman jurisdictional bar is a narrow one, and was applied too broadly
in this case.
Defendant was appointed guardian of the Estate of Plaintiff's
mother (Thalia Dukes). Her bank account was more than adequate to
satisfy her bills at the nursing home. Nevertheless, defendant placed a
document in front of petitioner asking his permission to sell the many
properties owned by his mother and to waive his right to complain.
I

Petitioner refused to sign the document, thus, refusing to waive any of
his rights. See App. 4. Petitioner then filed a petition in the state courts
requesting an order transferring his mother to petitioner's home at 820
South 10th Street Wilmington, NC., from Department of Social Services
(DSS). A representative was dispatched to inspect the home. In the
meantime, after being notified of the transfer request, Defendant filed
a petition in state court requesting permission to sell all the properties.
His request was granted.
Petitioner moved this dispute to the Federal System. Defendant
invoked The Rooker-Feldman doctrine that strip federal district and
bankruptcy courts of their subject matter jurisdiction over suits that can
be characterized as appeals or reconsideration of state court
judgments. However, application of the Rooker-Feldman doctrine is
subject to limitations, especially, as here, where petitioner presented
an independent claim, albeit one that denies a legal conclusion that the
state court afforded due process in a case where Defendant (alone)
knew of the date certain for the evidentiary hearing. If the RookerFeldman doctrine attaches under these circumstances, vital finality
interest protected by the Due Process Clause will be undermined. The
opinions of the courts below raises an important question of federal
law that should be settled by this court.

H

PARTIES TO THE PROCEEDING

Petitioner is Tony C. Thomas, a citizen of the United States of
America.
Respondent is Lawrence S. Craige, a citizen of the United States of
America.

DIRECTLY RELATED PROCEEDINGS

Petitioner is Tony C. Thomas, a citizen of the United States of
America. Defendant is Lawrence S. Craige.
Petitioner commenced a law suit against Defendant on July 13,
2015, in New Hanover County Superior Court. File Number 18 CVS
3803. Defendant was appointed guardian of the estate of petitioner's
mother, claiming that defendant violated petitioner's Eighth
Amendment and Fourteenth Amendment rights in selling the property
against petitioner's expressed will.

/»*

Hi

V

TABLE OF CONTENTS
QUESTIONS PRESENTED.

i

ii,iii

PARTIES TO THE PROCEEDINGS
DIRECTLY RELATED PROCEEDINGS

in

TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES

v

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL AND STATUTORY AUTHORITY INVOLVED.

1,2
2,3,4

STATEMENT OF THE CASE
REASONS FOR GRANTING THE PETITION

4

4,5

I.

INTRODUCTION

II.

THE ORIGIN AND LIMITATIONS OF THE ROOKER-FELDMAN
DOCTRINE._____________________________________ 5,6

CONCLUSION

VERIFICATION STATEMENT

8

CERTIFICATE OF SERVICE

9

iv.

s
APPENDIX

United States Court Of Appeals For The Fourth Circuit_App. 1
United States District Court Eastern District Of North Carolina
____________________________________________ App. 2
Supreme Court of North Carolina

App. 3

Waiver of Notice And Consent To Sale

App. 4

Notice Of Hearing

App.5

North Carolina Court Of Appeals

App.6

TABLE OF AUTHORITIES
CasesExxon Mobil Corp. v. Saudi Basic Industries Corp
544 U.S. 280 (2005)______________________

6/

Rooker-Feldman v. Trust Co.
263 U.S. 413 (1923) and 460 U.S. 462 (1983),

UA 5,6

28 USCA section 1254_________________

1.

U.S. Const, amendments Eight & Fourteenth
v.

i,iii,1,2,6,

V

OPINIONS BELOW

The opinion of the New Hanover County Superior Court in docket
number (18 CVS 3803 -18 CVS 003803) was issued on May 6, 2019, and
is unpublished. The opinion of the Supreme Court of North Carolina in
docket number 256P19-1, was issued August 14, 2019, and is
unpublished. App.3. The opinion of the United States District Court
(Eastern District of North Carolina) in docket number 7:19CV-181-FL
was issued April 7, 2020, and is unpublished. App.2. The opinion of the
United States Court of Appeals for the Fourth Circuit in docket number
20-1457, was issued August 24, 2020, and is unpublished. App.l.

STATEMENT OF JURISDICTION
This Court's jurisdiction is drawn from 28 U.S.C. section 1254,
which provides that cases in the court of appeals may be reviewed by
the Supreme Court by writ of certiorari regarding any civil or criminal
case.

STATUTORY AND CONSTITUTIONAL AUTHORITY INVOLVED
The Fifth Amendment to the United States Constitution states:
No person shall be held to answer for a capital, or otherwise

i

\

infamous crime, unless on a presentment or indictment of a
Grand Jury, except in cases arising in the land or naval forces
or in the Militia, when in actual service in time of War or
public danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty. or property, without
due process of law; nor shall private property be taken for
public use. without just compensation. (emphasis added).

STATEMENT OF THE CASE
Petitioner's mother (Thalia Dukes) was adjudicated incompetent
and placed in the custody of Department of Social Services (DSS).
Defendant was appointed Guardian of the Estate of (Dukes). He then
presented a document to petitioner requesting his signature to sell her
property and to waive his rights of inheritance, and to waive his right to
complain. Petitioner refused to waive any of his rights and did not sign
the document. Thereafter, petitioner filed a document with the clerk of
New Hanover County Superior Court, requesting an order transferring
his mother (Ms. Dukes) from Department of Social Services to
petitioner's three bed room house, where he lived alone.

2.

DSS dispatched an inspector to the home. In the meantime, Defendant
was notified of the transfer request, he then filed a petition to sell
(Dukes7) many properties. A judge granted his request.
In the Matter of the Estate of Thalia Dukes. Incompetent.
petitioner filed a civil rights law suit against Defendant in the New
Hanover County Superior Court on July 13, 2015 (No. 18 CV 003803),
Jury trial requested. After receiving respondent's Answer to the civil
rights complaint, the Court Administrator moved the case forward to
jury trial. Defendant, acting as a Clerk of Court, authored a document
entitled "NOTICE OF HEARING" ..."on the 6th day of May, 2019, at
10.00 a.m., or as soon thereafter as the Court can hear it". App. 5.
While petitioner waited for a date certain of the hearing, Defendant,
went before a judge requesting dismissal of the civil rights complaint
without affording petitioner the opportunity of presenting his case. The
judge granted defendant's request.
Petitioner went to the Clerk's office to file an appeal to the
Appellate Court. He was told that "no appeal would be filed." Petitioner
then sent the original and two copies of his appeal to the Court of
Appeals of North Carolina. Daniel M. Horne, Jr., Clerk, responded by
assuring petitioner that unless the trial court clerk sends the appeal to
him, by Rule he cannot file the notice of appeal. App. 6.
3.

Petitioner then filed with the Supreme Court of North Carolina
requesting the Court to "ASSUME JURISDICTION" since the trial court
Clerk refused to honor petitioner's NOTICE OF APPEAL. The North
Carolina Supreme Court refused to get involved. App.3.
Petitioner then filed a civil rights law suit in the United States
District Court for the Eastern District of North Carolina, complaining,
among other things, that his due process rights were violated. However
the Court agreed with Defendant, dismissing petitioner's complaint
based upon this Court's ruling in the Rooker-Feldman, doctrine case.
Petitioner appealed the dismissal to the United States Court for
the Fourth Circuit, presenting an "independent claim", namely, that
petitioner was denied a hearing in the state courts and the state's
highest refused to remedy the situation.

REASONS FOR GRANTING THE PETITION
Petitioner now seeks further review in this Court and offers the
following reasons why a writ of certiorari is warranted.

1. INTRODUCTION
In the history of this Court's jurisprudence regarding the RookerFeldman doctrine, there has never been a definitive answer to the
many Limitations associated with the doctrine. As in this case, the

H.

doctrine was used arbitrarily, since the litmus test that a federal court
must apply is whether the relief requested in the federal action would
effectively reverse the state court decision. Petitioner's "independent
claim" is, and was, that he was denied a hearing in the courts and
below.

II. THE ORIGIN AND PROTECTIONS OF THE ROOKER-FELDMAN
DOCTRINE.
Rooker-Feldman doctrine is a legal principle that a federal court do
not have jurisdiction to review decisions of state courts or claims
inextricably intertwined with an earlier state-court judgment. The
doctrine gets its name from two United States Supreme Court cases;
Rooker v. Fidelity Trust Co., 263 U.S. 413 (U.S. 1923) and D.C. Court of
Appeals v. Feldman, 460 U.S. 462 (U.S. 1983). The first case held that
the power to hear appeals from state court judgments is exclusively
held by the United States Supreme Court. The United States Supreme
Court held in the second case that federal district courts do not have
jurisdiction to hear challenges to certain state-court decisions. For
example, as in this case, the Rooker-Feldman doctrine is inapplicable
when the alleged injury is distinct from the judgment. For instance, it is
inapplicable when the federal claim alleges a prior injury that a state

S',

I

court failed to remedy. See App.3, where the North Carolina Supreme
didn't want to get involved. Finally, application of the Rooker-Feldman
doctrine is subject to limitations. In Exxon Mobil Corp v. Saudi Basic
Indus. Corp., the Supreme Court cautioned that “Rooker-Feldman does
not otherwise override or supplant preclusion doctrine or augment the
circumscribed doctrines that allow federal courts to stay or dismiss
proceedings in deference to state-court actions." The Court also states
that "[i]f a federal plaintiff presents] some independent claim, albeit
one that denies a legal conclusion that a state court has reached in a
case to which he was a party..., then there is jurisdiction." Exxon
Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 292 (2005)
(section 1257).
More recently, the Supreme Court concluded that the inferior
federal courts had been applying Rooker-Feldman too broadly.
Petitioner's federal suit did not seek - indeed could not have sought—
to re-litigate claims decided by a state court, because petitioner is still
waiting for a “date certain" for the hearing to take place so that all
parties may have an opportunity to present their cases in a manner
guaranteed by the Due Process Clause of the United States
Constitution.

6.

I5

CONCLUSION

For the foregoing reasons, the petition for a writ of certiorari
should be granted.

Respectfully Submi

Tony C. Thomas, Petitioner
820 South 10th Street
Wilmington, NC 28401
(224) 610- 9794

7.

V

VERIFICATION
STATE OF NORTH CAROLINA
COUNTY OF NEW HANOVER

By my signature below, I, Tony C. Thomas, hereby affirm, under
penalty of lying to authorities, that the foregoing statements were
made to the best of my knowledge, information and belief; that the
allegations contained in this petition for a writ of certiorari represent
accurately his petition.

TONY CJ/HOMAS, pro se.

November 5, 2020

8.

